Respectfully submitted,

Executed on July 2021.
v, 543-986
Gr got:yD--eeN

PROOF OF SERVICE

- I, Gregory Dew, do swear or declare that on this date, as required by Supreme
Court Rule 29, I have served the enclosed PETITIONER'S MOTION TO DISMISS
PETITION FOR WRIT OF CERTIORARI on each party to the above proceeding or
that party's counsel by depositing an envelope containing the above documents in the
United States mail properly addressed and with first-class postage prepaid.
The names and addresses of those served are as follows:
Ohio Attorney General, 150 East Gay Street, 16th Floor, Columbus, Ohio 43215.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July";), 2021.

gory Dew, 43-986

2

